Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants 
to the Oxnard Police DepartmentOxnard, California


GR-90-03-007


February 2003
Office of the Inspector General
Note:   On September 30, 2002, the General Counsel of the Office of the Inspector General (OIG) advised the OIG Audit Division that 42 U.S.C. § 3796dd-2 limited the term of an Office of Community Oriented Policing (COPS) grant for the hiring of law enforcement officers to five years and the term of a grant for other purposes to three years; this opinion considered any grant renewal or extension periods to be included in the term limitations.  As a result, grant periods with terms that exceeded those in statute were considered to be in violation by the OIG and were addressed accordingly in our audit reports.  However, the OIG General Counsel, on June 13, 2003, rescinded his earlier opinion and now believes that the use of a "no-cost" grant period extension, in and of itself, is not inconsistent with the above statute reference.  As a result, findings developed solely because of this issue, if any, are no longer viewed as a violation of statute and the associated recommendation has been closed with no further action required by the entity audited or the COPS Office.
[This note added on 7/21/2003]


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Oxnard, California Police Department (OPD). The purpose of the grants is to enhance community policing. The OPD was awarded a total of $3,659,400 to hire 32 new police officers and redeploy the equivalent of 44 existing full-time police officers from administrative duties to community policing.
We reviewed the OPD's compliance with seven essential grant conditions and we found no weaknesses in: budgeting for local officer positions, hiring of additional officers, source of local match, redeployment tracking, community policing, and retention of officer positions. However, as a result of the deficiencies identified below, we question $88,533 in grant funds received and recommend an additional $148,710 in grant funds be deobligated and put to better use.1

The OPD failed to expend UHP IV grant funds within the time limit established by Congress and in accordance with the COPS Office requirement that grant funds be obligated during the term of the grant.
The OPD failed to meet the local match requirement for the MORE 95 grant.
The remaining funds for the MORE 95 and UHP IV grants need to be deobligated and the funds put to better use.

These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use. However, not all findings are dollar-related. See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.